i

APPENDIX

Case: 20-1161

Document: 6-2

Filed: 07/10/2020

Page: 1

No. 20-1161
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

f
WILLIAM HUGH WILSON,
Petitioner-Appellant,
v.

UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED

Jul 10, 2020
DEBORAH S. HUNT, Clerk
ORDER

Before: RE ADLER, Circuit Judge.

William Hugh Wilson, a pro se federal prisoner, appeals the district court’s judgment
denying his motion to vacate, set aside, or correct his sentence filed pursuant to 28 U.S.C. § 2255.
This court construes Wilson’s notice of appeal as an application for a certificate of appealability
(COA). See Fed. R. App. P. 22(b)(2).
In 2017, pursuant to a written agreement, Wilson pleaded guilty to being a felon in
possession of a firearm, in violation of 18 U.S.C. § 922(g)(1). The district court found that he was
an armed career criminal due to five prior serious drug offenses, pursuant to 18 U.S.C. § 924(e),
and sentenced him to 204 months of imprisonment, to be followed by five years of supervised
release. On direct appeal Wilson’s counsel filed a motion to withdraw, questioning whether
Wilson’s underlying convictions qualified as serious drug offenses in a brief filed pursuant to
Anders v. California, 386 U.S. 738 (1967), and this court granted the motion and affirmed. United
States v. Wilson, No. 17-2324 (6th Cir. July 16, 2018) (order).
Wilson then filed a motion to vacate his conviction and sentence, arguing that: (1) the
district court lacked subject-matter jurisdiction over his prosecution for various reasons, and his
counsel performed ineffectively by failing to raise those arguments; (2) his guilty plea was invalid
because counsel misadvised him of the element that the prosecution must know that Wilson

Case: 20-1161

Document: 6-2

Filed: 07/10/2020

Page: 2

No. 20-1161
-2belonged to a class of persons prohibited from possessing a firearm; and (3) his prior Michigan
drug convictions did not qualify as serious drug offenses for enhancement purposes in light of the
First Step Act of 2018. The district court concluded that Wilson’s claims either lacked merit or
were procedurally defaulted and denied the motion to vacate. The district court declined to issue
aCOA.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). When the denial of a motion is based on the merits,
“[t]he petitioner must demonstrate that reasonable jurists would find the district court’s assessment
of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
To satisfy this standard, the applicant must demonstrate “that jurists of reason could disagree with
the district court’s resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537
U.S. 322, 327 (2003). When the district court has denied a § 2255 motion on procedural grounds,
a petitioner must show “that jurists of reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.
To show that counsel performed ineffectively, a petitioner must establish that (1) counsel
performed deficiently and (2) the deficient performance prejudiced his defense. Strickland v.
Washington, 466 U.S. 668,687 (1984). There is a “strong presumption” that an attorney “render[s]
adequate assistance and [makes] all significant decisions in the exercise of reasonable professional
judgment.” Id. at 689-90. To establish prejudice, a petitioner must show “that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Id. at 694. “[Ineffective assistance of appellate counsel claims are governed by
the same Strickland standard as claims of ineffective assistance of trial counsel.” Shaneberger v.
Jones, 615 F.3d 448,452 (6th Cir. 2010).

Case: 20-1161

Document: 6-2

Filed: 07/10/2020

Page: 3

No. 20-1161
-3 Jurisdiction
Wilson raised various frivolous challenges to the district court’s subject-matter jurisdiction
to preside over his prosecution. The district court correctly concluded that it possessed jurisdiction
under 18 U.S.C. § 3231, which gives the federal courts original and exclusive jurisdiction over
federal crimes. And § 922(g) was validly enacted under Congress’s authority under the Commerce
Clause of Article I, Section 8 of the Constitution. See United States v. Henry, 429 F.3d 603, 61920 (6th Cir. 2005). Thus, counsel did not perform ineffectively by failing to raise a frivolous issue.
See Coley v. Bagley, 706 F.3d 741, 752 (6th Cir. 2013). Reasonable jurists could not debate the
district court’s ruling.
Guilty Plea
(a) Ineffective Assistance. Wilson argued that trial counsel performed ineffectively by
failing to inform him that the government would have been required to prove that Wilson knew
that he belonged to a category of persons barred from possessing a firearm—in this case a felon—
in order to convict him under § 922(g). See Rehaifv. United States, 139 S. Ct. 2191, 2194 (2019).
Assuming that counsel did not inform him of this requirement, the district court concluded that
counsel’s advice was not deficient because it was consistent with the law at the time. Prior to the
Supreme Court’s decision in Rehaif, this court had held that the government need prove only that
a defendant had a prior felony conviction and knowingly possessed a firearm to violate § 922(g).
United States v. Brown, 888 F.3d 829, 833 (6th Cir. 2018). And counsel was not ineffective for
failing to predict a new development in the law. See Thompson v. Warden, Belmont Corr. Inst.,
598 F.3d 281,288 (6th Cir. 2010). Reasonable jurists could not debate the district court’s rejection
of this claim.
(b) Validity ofPlea. Wilson claimed that he had not been lawfully convicted of his prior
serious drug offenses because the Michigan laws under which he had been convicted were not
properly enacted, and that he had believed that his “contract” with Michigan concerning his
punishment for those prior convictions had expired and thus he had “believed he was no longer a
felon.” In order for a guilty plea to be constitutional it must be made knowingly, intelligently,

Case: 20-1161

Document: 6-2

Filed: 07/10/2020

Page: 4

No. 20-1161
-4voluntarily, and with sufficient awareness of the relevant circumstances and likely consequences.
Bradshaw v. Stumpf, 545 U.S. 175, 183 (2005). Courts evaluate the voluntariness of a guilty plea
in light of all relevant circumstances surrounding the plea, and threats or misrepresentations that
induce a plea also render the plea involuntary. Brady v. United States, 397 U.S. 742, 755 (1979).
However, a motion to vacate under § 2255 does not serve as a substitute for bringing a direct
criminal appeal. Reed v. Farley, 512 U.S. 339, 353-54 (1994); see Ray v. United States, 721 F.3d
758, 761 (6th Cir. 2013). “Generally, when a defendant fails to raise an issue at sentencing or on
direct appeal, that issue is waived.” Huff v. United States, 734 F.3d 600, 605-06 (6th Cir. 2013).
A defendant may pursue waived claims through a collateral attack under § 2255 only when he can
demonstrate cause and prejudice to excuse his default, or that a fundamental miscarriage of justice
occurred. See McCleskey v. Zant, 499 U.S. 467, 494-95 (1991); Elzy v. United States, 205 F.3d
882, 884 (6th Cir. 2000).
The district court first found that Wilson had not shown that his state convictions had been
invalidated and that his motion to vacate was not a proper avenue to challenge their validity.
Reasonable jurists could not debate this conclusion. Further, both in his § 2255 affidavit and at
his probation interview, Wilson admitted that he was aware that he had been a felon and that it
was illegal for him to possess firearms, but believed that his felon status was invalid or had ended
due his misinterpretation of the law.1 However, his misunderstanding of the legal consequences
of his prior convictions is not an excuse, nor are his erroneous legal theories concerning those
convictions. See United States v. Bowens, 938 F.3d 790, 797 (6th Cir. 2019) cert, denied, 140 S.
Ct. 814 (2020), and 2020 WL 1496666 (U.S. Mar. 30, 2020) (No. 19-6757). Reasonable jurists
could not debate the district court’s rejection of these arguments.
The district court also concluded that Wilson’s attack on the validity of his plea was
procedurally defaulted because he had not raised it on direct appeal and he had not established
cause or prejudice to excuse the default, or that there was a fundamental miscarriage of justice.

i

Wilson did argue in his reply brief that he was not aware that his Michigan convictions
were punishable by a term of imprisonment exceeding one year.

Case: 20-1161

Document: 6-2

Filed: 07/10/2020

Page: 5

No. 20-1161
-5 See Huff, 734 F.3d at 605-06. First, the fact that the claim would have been rejected by this court
at that time is insufficient to excuse the default. See Bousley v. United States, 523 U.S. 614, 623
(1998). Second, as discussed above, Wilson did not show that counsel performed ineffectively by
failing to raise the claim on direct appeal because counsel’s actions were professionally reasonable.
And lastly, he did not present new evidence showing that it was more likely than not that no
reasonable juror would have convicted him, as necessary to excuse procedural default on the basis
of actual innocence. See Schlup v. Delo, 513 U.S. 298, 327-28 (1995). Accordingly, reasonable
jurists could not debate the district court’s conclusion that his attack on the validity of his guilty
plea was procedurally defaulted.
ACCA Enhancement and First Step Act
Wilson argued that his prior convictions no longer qualified him as an armed career
criminal under 18 U.S.C. § 924(e) due to the First Step Act of 2018. Pub. L. No. 115-391, 132
Stat. 5194. The First Step Act, however, did not amend the definition of a serious drug offense in
§ 924(e)(2)(A). See id.
Wilson fails to make a substantial showing of the denial of a constitutional right.
Accordingly, the application for a COA is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case l:17-cr-00060-PLM ECF No. 113, PagelD.774 Filed 12/05/19 Page 1 of 14

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

UNITED STATES OF AMERICA,
Plaintiff,
File No. L17-CR-60
v.
HON. PAUL L. MALONEY
WILLIAM HUGH WILSON,
Defendant.
OPINION
Before the Court is a motion to vacate, set aside, or correct sentence under 28 U.S.C.
§ 2255, and supplement thereto, filed by Defendant William Hugh Wilson (ECF Nos. 99, 102).
The Government has filed a response to the motion, arguing that the grounds for relief are meritless
and/or procedurally defaulted. The Court agrees with the Government. Accordingly, the motion
under § 2255 will be denied.
I. Background
On January 5,2017, Michigan authorities executed a search warrant at a residence
in Kalamazoo, Michigan, after an informant purchased cocaine from that location on two
occasions. The informant identified Defendant as the one who sold him cocaine during the first
purchase. After entering the residence, police discovered four firearms—including two shotguns,
a revolver and a pistol—as well as 5 grams of cocaine, digital scales, plastic baggies, a crack pipe,
and razor blades. At the time, Defendant was a convicted felon. He had been convicted of
possession with intent to deliver less than 50 grams of controlled substances, in violation of Mich.
Comp. Laws § 333.7401(2)(a)(iv), on five previous occasions.

Case l:17-cr-00060-PLM ECF No. 113, PagelD.775 Filed 12/05/19 Page 2 of 14

On February 23,2017, a grand jury returned an indictment charging Defendant with
being a felon in possession of a firearm, in violation of 18 U.S.C. § 922(g)(1) (Count 1), as well
as possession with intent to distribute cocaine, in violation of 21 U.S.C. § 841(a)(1) (Count 2).
On June 1,2017, Defendant pleaded guilty to Count 1 in exchange for the dismissal
of Count 2. Under a plea agreement, the Government agreed to recommend a sentence at the low
end of the Sentencing Guidelines range, and to not oppose a reduction in Defendant’s offense level
for acceptance of responsibility. (Plea Agreement, ECF No. 46, PageID.94.)
The Final Presentence Investigation Report (“PIR”) calculated Defendant’s
recommended range of sentence under the Sentencing Guidelines as 262 to 327 months, based on
a total offense level of 34 and a criminal history category of VI. (PIR, ECF No. 61, PageID.246.)
The PIR set the offense level at 34 because Defendant is an “armed career criminal” under the
Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e). See U.S.S.G. § 4B1.4 (2016) (setting
the offense level at 34 for armed career criminals). Defendant had at least three prior convictions
for a “serious drug offense,” as that term is defined in 18 U.S.C. § 924(e)(2)(A). All five of his
prior drug convictions are serious drug offenses because each of them was punishable by up to 20
years in prison. See Mich. Comp. Laws § 333.7401(2)(a)(iv).
The PIR determined that Defendant was not eligible for any credit for acceptance
of responsibility (see PIR, PageID.220), but Defendant’s counsel objected to that determination
and the Court granted the objection. (Sentencing Tr., ECF No. 82, PageID.538.) Accordingly, the
Court reduced the total offense level to 31, resulting in a sentencing range of 188 to 235 months.
The Court sentenced Defendant near the bottom of the guidelines range to 204 months in prison.
Defendant appealed his sentence, arguing that the ACCA enhancement did not
apply because his prior drug convictions involved small quantities of drugs and, thus, were not

2

Case l:17-cr-00060-PLM ECF No. 113, PagelD.776 Filed 12/05/19 Page 3 of 14

“serious drug offenses.” The Court of Appeals rejected that argument and affirmed this Court’s
judgment. See United States v. Wilson, No. 17-2324 (6th Cir. July 16, 2018). It also noted that
Defendant had “knowingly and voluntarily” waived his right to appeal. Id.
Defendant now raises the following grounds for relief in his motion under § 2255
and supplement thereto:.i
I.

This court lacks subject matter jurisdiction over this case.

II.

The plea in this matter is inadmissible evidence.

in.

[Defendant’s] prior state drug convictions do not qualify as a serious drug
offense for (ACCA) enhancement.

(§ 2255 Motion, ECF No. 99, PageID.642, 643; Mot. to Supplement, ECF No. 102, PageID.711.)
II. Standards
A. Merits
A prisoner who moves to vacate his sentence under § 2255 must show that the
sentence was imposed in violation of the Constitution or laws of the United States, that the court
was without jurisdiction to impose such a sentence, that the sentence was in excess of the
maximum authorized by law, or that it is otherwise subject to collateral attack. 28 U.S.C. § 2255.
To prevail on a § 2255 motion “a petitioner must demonstrate the existence of an error of
constitutional magnitude which had a substantial and injurious effect or influence on the guilty
plea or the jury’s verdict.” Humphress v. United States, 398 F.3d 855,858 (6th Cir. 2005) (quoting
Griffin v. United States, 330 F.3d 733,736 (6th Cir. 2003)). Non-constitutional errors are generally
outside the scope of § 2255 relief. United States v. Cofield, 233 F.3d 405, 407 (6th Cir. 2000). A
petitioner can prevail on a § 2255 motion alleging non-constitutional error only by establishing a

1 The Court will grant Defendant’s motion to supplement, and accepts the additional ground for relief in the
supplement as part of the motion under § 2255.

3

Case l:17-cr-00060-PLM ECF No. 113, PagelD.777 Filed 12/05/19 Page 4 of 14

“fundamental defect which inherently results in a complete miscarriage of justice, or, an error so
egregious that it amounts to a violation of due process.” Watson v. United States, 165 F.3d 486,
488 (6th Cir. 1999) (quoting United States v. Ferguson, 918 F.2d 627, 630 (6th Cir. 1990) (internal
quotations omitted)).
B. Evidentiary Hearing
The court must hold an evidentiary hearing to determine the issues and make
findings of fact and conclusions of law “[ujnless the motion and the files and records of the case
conclusively show that the prisoner is entitled to no relief....” 28 U.S.C. § 2255(b). No hearing
is required if Defendant’s allegations “cannot be accepted as true because they are contradicted by
the record, inherently incredible, or conclusions rather than statements of fact.” Arredondo v.
United States, 178 F.3d 778, 782 (6th Cir. 1999) (quotation omitted).
III. Analysis
A. Jurisdiction
Defendant makes a number of patently frivolous arguments in support of his claim
that the Court lacked subject matter jurisdiction over the case against him. Among other things,
he contends that the Government did not have power to detain him because the indictment was not
an “Act of Congress” under 18 U.S.C. § 4001(a). He also contends that the Court cannot try any
offense unless it is committed “elsewhere out of the jurisdiction of any particular State,” citing 18
U.S.C. § 3238. He contends that Congress only has power to “define and punish Piracies and
Felonies committed on the high Seas, and Offences against the Law of Nations,” citing Article I,
Section 8, Clause 10 of the Constitution. He contends that Michigan is not a place “purchased by
the Consent of the Legislature,” or a “Territory or other Property belonging to the United States,”
citing Article I, Section 8, Clause 17, and Article IV, Section 3, Clause 2 of the Constitution. He
also contends that the United States has “invaded” Michigan, in violation of Article 4, Section 4
4

Case l:17-cr-00060-PLM ECF No. 113, PagelD.778 Filed 12/05/19 Page 5 of 14

of the Constitution. He asserts that all laws contained in the United States Code are invalid for a
variety of reasons. And he contends that 18 U.S.C. § 922(g) is invalid because it does not contain
an enacting clause.
The foregoing arguments and others like them deserve little discussion. The Court
had jurisdiction under 18 U.S.C. § 3231, which gives “district courts of the United States . . .
original jurisdiction ... of all offenses against the laws of the United States.” Id. This Court is a
district court of the United States.2 The Government charged Defendant with violating 18 U.S.C.
§ 922(g), which is a law of the United States. That law was validly enacted under Congress’
authority in the Commerce Clause of Article I, Section 8 of the Constitution. See United States v.
Henry, 429 F.3d 603, 619-20 (6th Cir. 2005) (citing cases); accord Holmes v. United States, 281
F. App’x 475, 482 (6th Cir. 2008). The Constitution does not require the presence of an enacting
clause for a law to be valid, but such a clause exists for § 922(g). See Omnibus Crime Control and
Safe Streets Act of 1968, Pub. L. No. 90-351, 82 Stat. 197 (1968) (showing the enacting clause for
the earliest version of § 922(g)). Thus, Defendant’s arguments regarding jurisdiction are meritless.
Defendant complains that his attorney refused to raise the issue ofjurisdiction, but
counsel is not required to raise every possible issue presented by a defendant. An attorney “may
exercise his professional judgment with respect to the viability of certain defenses and evidentiary
matters without running afoul of the Sixth Amendment.” Lewis v. Alexander, 11 F.3d 1349,135354 (6th Cir. 1993). Moreover, attorneys are not obligated to raise “wholly meritless claims,” like
Defendant’s assertion that this Court lacked jurisdiction. See United States v. Martin, 45 F. App’x

2 Contrary to Defendant’s assertion, the definition of “court of the United States” in 18 U.S.C. § 23 does not exclude
this Court from the scope of 18 U.S.C. § 3231. “Title 18 U.S.C. § 23 merely clarifies that references within title 18
to the term ‘court of the United States’ also includes references to courts that are located within certain United States
territories (i.e., the District Courts of Guam, the Northern Mariana Islands, and the Virgin Islands). The statute does
not limit criminal jurisdiction to these specifically enumerated courts.” United States v. Proch, Nos.
3:09cr35/MCR/EMT, 3:12cv297/MCR/EMT, 2015 WL 5245070, at *9 (N.D. Fla. June 19,2015).

5

Case l:17-cr-00060-PLM ECF No. 113, PagelD.779 Filed 12/05/19 Page 6 of 14

378,381 (6th Cir. 2002). Accordingly, the failure of Defendant’s attorney to challenge the Court’s
jurisdiction did not deprive Defendant of the effective assistance of counsel.
B. Validity of Defendant’s Plea
Defendant contends that his plea is invalid and “inadmissible” as evidence against
him because his attorney misadvised him about the elements of the offense to which he pleaded
guilty. 18 U.S.C. § 922(g) makes it unlawful for any person “who has been convicted in any court
of[] a crime punishable by imprisonment for a term exceeding one year ... to possess in or
affecting commerce, any firearm or ammunition^] or to receive any firearm or ammunition which
has been shipped or transported in interstate or foreign commerce.” 18 U.S.C. § 922(g)(1). A
person who “knowingly” violates § 922(g) is subject to imprisonment for up to 10 years. 18 U.S.C.
§ 924(a)(2).
The Supreme Court recently held that a person “knowingly” violates § 922(g) only
when they know about their conduct (i.e., possessing a firearm) and their status (i.e., being a felon).
Rehaif v. United States, 139 S. Ct. 2191, 2194 (2019). In other words, “the Government must
prove both that the defendant knew he possessed a firearm and that he knew he belonged to the
relevant category of persons barred from possessing a firearm.” Id. at 2200.
Defendant asserts that he was not aware that he was barred from possessing a
firearm. He contends that he was never “lawfully convicted” of drug offenses in the State of
Michigan, and he believed that his “rights” were restored when he completed his probation for his
drug offenses. (§ 2255 Motion, ECF No. 101, PageID.100-101.)
There are two claims embedded in Defendant’s challenge to his plea. The first
claim is that his plea is invalid because he received ineffective assistance of counsel in connection
with the plea; his attorney misadvised him about the elements of his offense, impacting his decision

6

Case l:17-cr-00060-PLM ECF No. 113, PagelD.780 Filed 12/05/19 Page 7 of 14

to plead guilty. The other claim is that his plea is invalid because he was not aware of one of the
elements of the charge against him. The Court will examine each claim in turn.
1. Ineffective Assistance of Counsel
Defendant claims that his attorney misadvised him about the elements of his
offense. His attorney did not inform him that, for a jury to find him guilty under § 922(g), the
Government would have to prove that Defendant knew he was a felon when he possessed his
firearms (i.e., he knew that at least one of his prior convictions was punishable by imprisonment
for more than a year). The record of Defendant’s proceedings does not indicate that Defendant
ever received notice of this element of his offense before he entered his plea. Neither the plea
agreement nor the Court in its plea colloquy mentioned it. The plea agreement and plea colloquy
both focused on Defendant’s knowledge that he possessed firearms, and the fact that Defendant’s
prior convictions were felonies. They did not tie the knowledge requirement of § 922(g) to
Defendant’s status as a felon.
Moreover, Defendant never admitted at his plea hearing that, at the time of his
offense, he was aware that he was a felon. Nor did he admit that he was aware that he could not
possess firearms due to his prior convictions. This is not a case in which the defendant’s prior
prison sentences gave him notice of his status. The longest prison sentence that Defendant ever
received was 365 days in jail. (See PIR, PageID.221-230.) In Rehaif, the Supreme Court suggested
that § 922(g)(1) would not apply to a person “who was convicted of a prior crime but sentenced
only to probation, who does not know that his crime is ‘punishable’ by imprisonment for a term
exceeding one year.’” Rehaif, 139 S. Ct. at 2198.
Ironically, the strongest evidence in the record of Defendant’s knowledge of his
status is in his memorandum in support of his motion under § 2255, where he states that when he
committed his federal offense, he “believed he was no longer a felon” and that “all of his rights
7

Case l:17-cr-00060-PLM ECF No. 113, PagelD.781 Filed 12/05/19 Page 8 of 14

were restored” because his probation had ended. (Mem. in Supp. of § 2255 Mot., ECF No. 101,
PageID.706.) In other words, by Defendant’s own admission, he was aware that his prior
convictions made him a felon. In addition, after his plea, Defendant allegedly admitted to the
Government that “he possessed multiple firearms, and he knew it was illegal for him to possess
firearms due to his prior felony convictions.” (PIR, PageED.217.)
In Strickland v. Washington, 466 U.S. 668, 687-88 (1984), the Supreme Court
established a two-prong test by which to evaluate claims of ineffective assistance of counsel. To
establish a claim of ineffective assistance of counsel, the petitioner must prove: (1) that counsel’s
performance fell below an objective standard of reasonableness; and (2) that counsel’s deficient
performance prejudiced the defendant resulting in an unreliable or fundamentally unfair outcome.
A court considering a claim of ineffective assistance must “indulge a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional assistance.” Id. at 689.
The defendant bears the burden of overcoming the presumption that the challenged action might
be considered sound trial strategy. Id. (citing Michel v. Louisiana, 350 U.S. 91, 101 (1955)); see
also Nagi v. United States, 90 F.3d 130, 135 (6th Cir. 1996) (holding that counsel’s strategic
decisions were hard to attack). The court must determine whether, in light of the circumstances as
they existed at the time of counsel’s actions, “the identified acts or omissions were outside the
wide range of professionally competent assistance.” Strickland, 466 U.S. at 690.
The two-part Strickland test applies to challenges to guilty pleas based on
ineffective assistance of counsel. Hill v. Lockhart, 474 U.S. 52, 58 (1985). Regarding the first
prong, the court applies the same standard articulated in Strickland for determining whether
counsel’s performance fell below an objective standard of reasonableness. Id. In analyzing the
prejudice prong, the focus is on whether counsel’s constitutionally deficient performance affected

8

Case l:17-cr-00060-PLM ECF No. 113, PagelD.782 Filed 12/05/19 Page 9 of 14

’ the outcome of the plea process. “[I]n order to satisfy the ‘prejudice’ requirement, the defendant
must show that there is a reasonable probability that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to trial.” Id. at 59.
Assuming Defendant’s attorney did not inform him that the Government had to
prove that he was aware that he had previously committed a felony when he possessed the firearms,
Defendant cannot demonstrate ineffective assistance because counsel’s advice was professionally
reasonable. It was consistent with the law at the time. Before the Supreme Court’s decision in
Rehaif, the Court of Appeals for the Sixth Circuit repeatedly stated that, to prove a violation of §
922(g), the Government had to show that the defendant “had” a prior felony conviction and that
he “knowingly” possessed a firearm. See, e.g., United States v. Peete, 781 F. App’x 427,432 (6th
Cir. 2019) (quoting United States v. Brown, 888 F.3d 829, 833 (6th Cir. 2018)); United States v.
Workman, 755 F. App’x 533, 536 (6th Cir. 2018); United States v. Farrad, 895 F.3d 859, 871 (6th
Cir. 2018); United States v. Nelson, 725 F.3d 615, 619 (6th Cir. 2013); United States v. Morrison,
594 F.3d 543, 544 (6th Cir. 2010). The court of appeals never stated that the Government had to
show that the defendant was aware of his status as a felon. In fact, in several cases the court
expressly held or stated that the knowledge requirement in § 922(g) only applied to the defendant’s
possession of a firearm or ammunition; it did not apply to the defendant’s status as a felon. See
United States v. Olender, 338 F.3d 629, 636 (6th Cir. 2003) (“[T]he government does not have to
prove that the defendant knew he was a felon, only that he knowingly possessed the ammunition.”);
United States v. McCormick, 517 F. App’x 411,414 (6th Cir. 2013); United States v. Davis, 27 F.
App’x 592,600 (6th Cir. 2001); see also United States v. Young, 766 F.3d 621,629 (6th Cir. 2014)
(noting that the “knowledge element [in § 922(g)] extends to possession but not to the illegality of
possession”).

It was reasonable for Defendant’s attorney to rely on governing precedent;

9

Case l:17-cr-00060-PLM ECF No. 113, PagelD.783 Filed 12/05/19 Page 10 of 14

Defendant’s attorney was “not ineffective for failing to predict the development of the law.”
Thompson v. Warden, Belmont Corr. Inst, 598 F.3d 281, 288 (6th Cir. 2010).
Defendant apparently believes that he could have defended himself against the
felon-in-possession charge by showing one of the following: (1) his possession of firearms was
legal because his state-court convictions were invalid; and (2) he did not know his possession of
firearms was illegal because he believed that he was no longer a felon and that his rights had been
restored because his probation had expired. Both defenses fall short, even after Rehaif.
As to the first defense, there is no support for Defendant’s contention that the prior
convictions are invalid,3 but even if there are grounds to challenge them, the place to raise those
challenges is in state court. As long as those convictions stand, he is subject to prosecution and
conviction under § 922(g) for possessing a firearm.
Defendant’s second defense—his belief that he was no longer a felon and that his
right to possess firearms had been restored—is invalid because “it runs headlong into the venerable
maxim that ignorance of the law is no excuse.” United States v. Bowens, 938 F.3d 790, 797 (6th
Cir. 2019). The Government had to show that Defendant was aware of his “relevant status,” i.e.,
that he was “a felon, an alien unlawfully in this country, or the like.” Rehaif, 139 S. Ct. at 2194.
It did not have to make the additional showing that Defendant knew he was “prohibited from
possessing firearms under federal law.” Bowens, 938 F.3d at 798. Defendant is expected to know
the legal consequences of his prior felony convictions, including the fact that he cannot legally
possess firearms and that he does not cease to be a felon when his sentences expire. Thus, for all
the foregoing reasons, Defendant’s ineffective assistance claim is meritless.

3 Defendant asserts that the laws under which he was convicted do not contain an enacting clause, as required by the
Michigan Constitution. He is mistaken. Defendant was convicted of offenses that are codified in The Public Health
Code, Mich. Comp. Laws § 333.1101 et seq., which begins with the following statement: “The People of the State of
Michigan enact:” 1978 Mich. Pub. Acts No. 368.

10

Case l:17-cr-00060-PLM ECF No. 113, PagelD.784 Filed 12/05/19 Page 11 of 14

2. Direct Attack on the Plea
To the extent Defendant attacks the validity of his plea because he was not aware
of one of the elements of an offense under § 922(g), his claim is procedurally defaulted because
he did not raise it on appeal. A plea may be “constitutionally invalid” if neither the defendant,
“nor his counsel, nor the court correctly understood the essential elements of the crime with which
[the defendant] was charged.” Bousley v. United States, 523 U.S. 614, 618 (1998). Nevertheless,
“the voluntariness and intelligence of a guilty plea can be attacked on collateral review only if first
challenged on direct review. Habeas review is an extraordinary remedy and will not be allowed
to do service for an appeal.” Id. at 621. “Where a defendant has procedurally defaulted a claim
by failing to raise it on direct review, the claim may be raised in habeas only if the defendant can
first demonstrate either ‘cause’ and actual ‘prejudice,’ or that he is ‘actually innocent[.]’” Id. at
622 (citations omitted) (quoting Murray v. Carrier, All U.S. 478, 485 (1986)).
Defendant does not allege any reason for failing to raise the issue on appeal. He
was represented by counsel, who raised only one issue. Defendant cannot rely on the fact that the
Sixth Circuit likely would have rejected his argument about the elements of a charge under
§ 922(g). ‘“[F]utility cannot constitute cause if it means simply that a claim was unacceptable to
that particular court at that particular time.’” Bousley, 523 U.S. at 623 (quoting Engle v. Isaac,
456 U.S. 107,130 n.35 (1982) (internal quotation marks omitted)). This is not a case in which the
claim was “‘so novel that its legal basis [was] not reasonably available to counsel[.]’” Id. at 622
(quoting Reed v. Ross, 468 U.S. 1,16 (1984)). The cases cited in the previous section—Olender,
McCormick, Davis, and Young—indicate that other defendants had litigated the issue of whether
a defendant’s knowledge of his status was a required element for a conviction under § 922(g). See
also United States v. Butler, 637 F.3d 519, 524 (5th Cir. 2011) (citing cases examining the issue).
Thus, this case is like Bousley, in which the Supreme Court held that an argument was available
11

Case l:17-cr-00060-PLM ECF No. 113, PagelD.785 Filed 12/05/19 Page 12 of 14

to counsel because, “at the time of petitioner’s plea, the Federal Reporters were replete with cases
involving challenges” like the one the defendant failed to raise on appeal. Bousley, 523 U.S. at
622.
In addition, Defendant cannot rely on the fact that his appellate attorney did not
raise the issue.

Ineffective assistance of appellate counsel can constitute cause to excuse

procedural default, see Hodges v. Colson, 711 F.3d 589, 602 (6th Cir. 2013), but Defendant’s
appellate counsel was not ineffective for the same reason that his trial counsel was not ineffective.
At the time of Defendant’s appeal, the Sixth Circuit had repeatedly held or implied that the
Government did not need to prove a defendant’s knowledge of his status to show that he was guilty
under § 922(g). Thus, it was reasonable for counsel to not raise the issue on appeal.
Furthermore, Defendant is not entitled to the miscarriage-of-justice exception to
procedural default because he has not shown that he is actually innocent. Actual innocence means
that “it is more likely than not that no reasonable juror would have convicted him.” Schlup v.
Delo, 513 U.S. 298, 327-28 (1995). As discussed above, Defendant is a convicted felon and he
has never contested his possession of the firearms. Moreover, he has indicated that he was aware
of his status as a felon. Accordingly, there is no basis for concluding that Defendant is factually
innocent of the charge of being a felon in possession of a firearm. Consequently, any challenge to
his plea on the basis that he did not understand the elements of the charge against him is
procedurally barred.
Finally, because Defendant has not asserted a valid basis for attacking his guilty
plea in this proceeding, he cannot contend that his plea is “inadmissible” as evidence against him.
The plea suffices as evidence of his guilt. See United States v. Broce, 488 U.S. 563, 569 (1989)

12

1
Case l:17-cr-00060-PLM ECF No. 113, PagelD.786 Filed 12/05/19 Page 13 of 14

(“A plea of guilty and the ensuing conviction comprehend all of the factual and legal elements
necessary to sustain a binding, final judgment of guilt and a lawful sentence.”).
For all the foregoing reasons, Defendant’s challenges to his plea are either meritless
or procedurally barred.
C. ACCA Enhancement
Defendant argues that he no longer qualifies as an armed career criminal due to the
First Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194. The First Step Act modified the
definition of “serious drug felony” in 21 U.S.C. § 802, which is a term used in Title 21 to set
punishments for certain drug offenses. See 21 U.S.C. § 841. The term “serious drug felony” is
not used in the ACCA. The ACCA uses a different term: “serious drug offense.” See 18 U.S.C.
§ 924(e)(2)(A). The First Step Act did not modify the definition of “serious drug offense,” or any
other part of the ACCA. Thus, the First Step Act does not impact Defendant’s sentence.
IV. Conclusion
In summary, after considering Defendant’s motion under § 2255 and supplement
thereto, the Court finds that the grounds for relief are either meritless or procedurally defaulted.
Moreover, no evidentiary hearing is warranted because the motion, files, and records of the case
conclusively show that Defendant is not entitled to relief. Consequently, the Court will deny the
motion under § 2255.
Under 28 U.S.C. § 2253(c), the Court must determine whether to issue a certificate
of appealability. A certificate should issue if the movant has demonstrated “a substantial showing
of a denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The Sixth Circuit has disapproved
of issuance of blanket denials of a certificate of appealability. Murphy v. Ohio, 263 F.3d 466,467
(6th Cir. 2001). The district court must “engage in a reasoned assessment of each claim” to
determine whether a certificate is warranted. Id. Each issue must be considered under the
13

Case l:17-cr-00060-PLM ECF No. 113, PagelD.787 Filed 12/05/19 Page 14 of 14

standards set forth by the Supreme Court in Slack v. McDaniel, 529 U.S. 473 (2000). Murphy,
263 F.3d at 467. Under Slack, to warrant a grant of the certificate, Defendant “must demonstrate
that reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack, 529 U.S. at 484.
When a motion to vacate sentence is denied on procedural grounds, a certificate of
appealability may issue only “when the prisoner shows, at least, that [1] jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a constitutional right and
[2] that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Id. Both showings must be made to warrant the grant of a certificate. Id.
The Court has carefully considered the issues under the Slack standard and
concludes that reasonable jurists could not find that this Court’s denial of Defendant’s claims was
debatable or wrong. Accordingly, the Court will deny a certificate of appealability.
An order and judgment will enter consistent with this Opinion.
.j

Dated:

December 5, 2019

Isl Paul L. Maloney
Paul L. Maloney
United States District Judge

14

